No.

IN THE
SUPREME COURT OF THE UNITED STATES
Elizabeth Aviles-Wynkoop, Petitioner
vs

Department of Defense, Respondents
CERTIFICATE OF COMPLIANCE for Writ of Certiorari

I, Elizabeth Aviles-Wynkoop, in reliance upon the word count of the word processing
system used to prepare this motion, certify that this motion complies with the typevolume limitation of
Fed. R. App. P. 27(d)(2) because it contains 3553 words, excluding the parts of the
motion exempted by Fed. Cir. R. 27(d)(2).

-20-

